     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

April 7, 2011

Report Number: A-07-11-00361

Ms. Sherrie LeMier
President
Cahaba Government Benefit Administrators, LLC
300 Corporate Parkway
Birmingham, AL 35242

Dear Ms. LeMier:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Cahaba Government Benefit Administrators, LLC, for Fiscal Years 2003
Through 2009. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00361
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
  CAHABA GOVERNMENT BENEFIT
   ADMINISTRATORS, LLC, FOR
FISCAL YEARS 2003 THROUGH 2009




                        Daniel R. Levinson
                         Inspector General

                            April 2011
                          A-07-11-00361
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period, Cahaba Government Benefit Administrators, LLC (Cahaba),
administered Medicare Part A and Part B operations for Blue Cross Blue Shield of Alabama
(BCBS Alabama), the legal entity that entered into these cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). Cahaba Safeguard Administrators, LLC,
administered program safeguard functions under a contract with CMS. Cahaba and Cahaba
Safeguard Administrators, LLC, are wholly owned subsidiaries of BCBS Alabama.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Cahaba claimed for
Medicare reimbursement for fiscal years (FY) 2003 through 2009.

SUMMARY OF FINDINGS

Cahaba did not claim $373,992 of allowable Medicare pension costs on its Final Administrative
Cost Proposals (FACP) for FYs 2003 through 2009, primarily because Cahaba incorrectly
allocated its CAS pension cost to Medicare operations. Cahaba claimed pension costs of
$38,359,971 for Medicare reimbursement; however, we determined that the allowable CAS
pension costs were $38,733,963.

RECOMMENDATIONS

We recommend that Cahaba:

   •   revise its FACPs for FYs 2003 through 2009 to claim the additional allowable pension
       costs of $373,992 and

   •   ensure that future pension costs are claimed in accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, Cahaba agreed with our recommendations. Cahaba’s
comments are included in their entirety as Appendix B.


                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Cahaba Government Benefit Administrators, LLC ............................................ 1
              Medicare Reimbursement of Pension Costs ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 2

          FEDERAL REQUIREMENTS ....................................................................................... 2

          ALLOWABLE PENSION COSTS NOT CLAIMED .................................................... 3

          RECOMMENDATIONS ................................................................................................ 3

          AUDITEE COMMENTS................................................................................................ 4

OTHER MATTER.................................................................................................................... 4

APPENDIXES

     A: ALLOWABLE MEDICARE PENSION COSTS FOR
        CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC,
        FOR FISCAL YEARS 2003 THROUGH 2009

     B: AUDITEE COMMENTS




                                                                     ii
                                           INTRODUCTION

BACKGROUND

Cahaba Government Benefit Administrators, LLC

During our audit period, Cahaba Government Benefit Administrators, LLC (Cahaba),
administered Medicare Part A and Part B operations for Blue Cross Blue Shield of Alabama
(BCBS Alabama), the legal entity that entered into these cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). 1 Cahaba Safeguard Administrators, LLC,
administered program safeguard functions under a contract with CMS. Cahaba and Cahaba
Safeguard Administrators, LLC, are wholly owned subsidiaries of BCBS Alabama.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Cahaba claimed for
Medicare reimbursement for FYs 2003 through 2009.

Scope

We reviewed $38,359,971 of pension costs that Cahaba claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 2003 through 2009. Achieving our
objective did not require that we review Cahaba’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

1
  Cahaba administered Medicare operations under a Medicare administrative contractor’s (MAC) contract with
CMS. Cahaba was awarded full Medicare Part A and Part B Jurisdiction 10 MAC operations on January 7, 2009,
and assumed full operations in September 2009.

                                                     1
We performed fieldwork at Cahaba’s office in Birmingham, Alabama, during May 2010.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Cahaba’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2003 through 2009. We also determined the extent to which Cahaba
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Cahaba’s historical practices and on the results of our
segmentation review, Review of Medicare Contractor’s Pension Segmentation Requirements at
Cahaba Government Benefit Administrators, LLC, for the Period January 1, 2002, to
January 1, 2009 (A-07-11-00360).

In performing our review, we used information that Cahaba’s actuarial consulting firm provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined Cahaba’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Cahaba did not claim $373,992 of allowable Medicare pension costs on its FACPs for FYs 2003
through 2009, primarily because Cahaba incorrectly allocated its CAS pension cost to Medicare
operations. Cahaba claimed pension costs of $38,359,971 for Medicare reimbursement;
however, we determined that the allowable CAS pension costs were $38,733,963.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

                                               2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

Cahaba did not claim $373,992 of pension costs that were allowable for Medicare reimbursement
for FYs 2003 through 2009. During that period, Cahaba claimed pension costs of $38,359,971
for Medicare reimbursement. We calculated allowable pension costs based on separately
computed CAS pension costs for the Medicare segment and the “Other” segment in accordance
with CAS 412 and 413. Based on the terms of the Medicare contracts, the allowable CAS
pension costs for this period were $38,733,963.

The following table compares allowable CAS pension costs with the pension costs claimed on
Cahaba’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                   Medicare Pension Costs
                                   Allowable    Claimed by
                 Fiscal Year       Per Audit       Cahaba             Difference
                    2003            $6,035,589     $5,917,240             $118,349
                    2004             6,119,146      6,085,570                33,576
                    2005             6,219,128      6,061,582               157,546
                    2006             5,755,344      5,799,999              (44,655)
                    2007             4,805,994      5,031,700            (225,706)
                    2008             5,154,982      4,862,000               292,982
                    2009             4,643,780      4,601,880                41,900
                    Total          $38,733,963    $38,359,971             $373,992

This underclaim occurred primarily because Cahaba incorrectly allocated its CAS pension cost to
its Medicare operations. Cahaba computed a CAS-based pension cost; however, Cahaba used an
incorrect methodology in assigning those pension costs to Medicare operations. As a result,
Cahaba did not claim $373,992 of allowable pension costs.

RECOMMENDATIONS

We recommend that Cahaba:

   •   revise its FACPs for FYs 2003 through 2009 to claim the additional allowable pension
       costs of $373,992 and

   •   ensure that future pension costs are claimed in accordance with the Medicare contracts.



                                                3
AUDITEE COMMENTS

In written comments on our draft report, Cahaba agreed with our recommendations. Cahaba’s
comments are included in their entirety as Appendix B.

                                    OTHER MATTER

Information from this review is needed for Cahaba to develop the appropriate pension costs
incurred under the Medicare Part A and Part B Jurisdiction 10 MAC contract. As shown in
Appendix A, we determined that the plan year (January 1 through December 31) 2009 allocable
CAS pension costs were $6,066,226 for the Cahaba Government Benefit Administrators, LLC,
Medicare segment, $1,157,770 for the Cahaba Safeguard Administrators, LLC, Medicare
segment, and $40,853,858 for the “Other” segment.




                                             4
APPENDIXES
                                                                                                                                                               10f4


                                                     APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                                      CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, 

                                                             FOR FISCAL YEARS 2003 THROUGH 2009 


                                                                              Total                        GBA Medicare    CSA Medicare            Total
     Date                                   Descri tion                                                                                           Medicare

     2003         ,<:ontributions                                 J/.,$48,000,000          $48,000,()()Q              $0              $0   +.."
    8,00% 
        Discount for Interest                          4/, ($2,638,222!         ($2,638,222!               $0              $0
January I, 2003 
 Present Value Contributions                     ?1 $45,361,778           $45,361,778                $0              $0
                   Prepayment Credit Applied                      6/ $21,066,649           $15,635,640        $5,065,629        $365,380
                  ·Present Value ofFunding                        li, $66,428,427          $60,997,418        $5,065,629        $365,380

January I , 2003     CAS. Funding Target                          ~. $21,066,649           $15,635,640        $5,065,629        $365,380
                      Percentage Funded                           21                           100.00%           100.00%         100.00%
                      Funded Pension Cost                        10/                       $15,635,640        $5,065,629        $365,380
                   ..-------­
                      Allowable.... ...Interest
                          "   ,   ,""",."".",.",.                ill                                $0                $0              $0
                     Allocable Pension Cost                      PI.                       $15,635,640        $5,065,629        $365,380
                    .MedicareI,OS· Percentage                    13/                             7.48%            96.06%           0.00%

                    Allowable Pension Cost                       HL                         $1,169,546        $4,866,043             $0           $6,035,589

     2004 
       .Contributions ......                             .,..
                                                                           $29,432,764     $29,432,7~                 $0              $0
    8.00% 
       ·Discount for Interest                                   ($1 ,292,207~   ($1 ,292,207~              $0              $0
January I, 2004 
 Present Value Contributions                              $28,140,557     $28,140,557                $0              $0
                   Prepayment CreditApplied                                $23,921, 105    $18,147,753        $5,240,693        $532,659
                  ,Present Valueof Funding                                 $52,061,662     $46,288,310.       $5,24Q,693        $532,659

January I, 2004     ,<:AS Funding!lIfget                                   $23,921,105     $1 8,1 47,7?}      $?,?40,693        $532,659
                     Percentage Funded                                                           100.00%         100.00%         100.00%
                     Funded Pension Cost                                                   $18,147,753        $5,240,693        $532,659
                    ·Allowable Interest                                                               $0              $0              $0
                     Allocable Pension Cost                                                $18, I 47,75}      $5,240,693        $532,659
                    •Medicare LOI3· Percentagf:                                                    5.73%          96.92%           0.00%

                    Allowable Pension Cost                                                                    $5,079,280             $0           $6,119,146

     2005 
       Contri butions                                           $37,500,000     $37,500,000                $0              $0
    8.00% 
       Discount for Interest                                    ($2,000.000)    ($2,000,000l               $0              $0
January I, 2005 
 Present Value Contributions                              $35,500,000     $35,500,000                $0              $0
                  Prepayment Credit Applied                                $25,419,152     $19,307,444        $5,437,943        $673,765
                  Present Value of Funding                                 $60,919,152     $54,807,444        $5,437,943        $673,765

January I , 2005    CAS Funding Target                                     $25,419,152     $19,307,444        $5,437,943        $673,765
                    ,~ercentage.Funded                                                         100.00%           10000%          100.00%
                    Funded Pension Cost                                                    $19,307,444        $5,437,943        $673,765
                    Allowable Interest                                                              $0                $0              $0
                    Allocable Pension Cost                                                 $19,307,444        $5,437,943        $673,765
                    Medicare LOB· Percentage                                                     4.86%            97.11%           0.00%

                    Allowable Pension Cost                                                   $938,342         $5280,786              $0           $6,219,128
                                                                                                                                           2 of 4




                                                       Total              "Other"        GBA Medicare     CSA Medicare         Total
     Date                       Description      , Company                Segment          Segment          Segment           Medicare

     2006         Contributions                      $44,787,098         $44,787,098                $0               $0
    8.00%         Discount for Interest              {$2,317,981 ~       {$2,317,981 ~              $0               $0
January I, 2006   Present Value Contributions        $42,469,117         $42,469,117                $0               $0
                  Prepayment Credit Applied          $30,051,722         $23,885,546        $5,494,099         $672,077
                  Present Value of Funding           $72,520,839         $66,354,663        $5,494,099         $672,077

January 1,2006    CAS Funding Target             ' $30,051,722       :   $23,885,546        $5,494,099         $672,077   ,
                  Percentage Funded                                          100.00%           100.00%          100.00% ,
                  Funded Pension Cost                                    $23,885,546        $5,494,099         $672,077   I
                  Allowable Interest                                              $0                $0               $0
                  Allocable Pension Cost                                 $23,885,546        $5,494,099         $672,077
                  Medicare LOB" Percentage                                     3.18%            90.93%            0.00%

                  Allowable Pension Cost                                    $759,560         $4,995,784              $0       $5,755,344

     2007         Contributions                      $41,134,159         $41,134,159                $0               $0
    8.00%         Discount for Interest              {$1,971,393~        {$1,971,393~               $0               $0
January 1,2007    Present Value Contributions        $39,162,766         $39,162,766                $0               $0
                  Prepayment Credit Applied          $31,451,394         $25,882,764        $4,851,778         $716,852
                  Present Value of Funding           $70,614,160         $65,045,530        $4,851,778         $716,852

January I, 2007   CAS FundingTarget                  $31,451,394       $25,882,764          $4,851,778         $716,852
                                                .)                   i
                  Percentage Funded                                        100.00%             100.00%          100.00%
                                                                                                                        i
                  Funded Pension Cost                                  $25,882,764          $4,851,778         $716,852
                  Allowable Interest                                 ,          $0                  $0               $0
                  Allocable Pension Cost                               $25,882,764          $4,851,778         $716,852
                  Medicare LOB" Percentage                                   2.20%              87.32%            0.00%

                  Allowable Pension Cost                                    $569,421        $4,236,573               $0       $4,805,994
                                                                     I
     2008         Contributions                      $35,000,000         $35,000,000                $0               $0
    8.00%         Discount for Interest              {$1,832,963)        {$I ,832,963)              $0               $0
January I, 2008   Present Value Contributions        $33,167,037         $33,167,037                $0               $0
                  Prepayment Credit Applied          $34,318,422         $28,538,752        $5,018,806         $760,864
                  Present Value of Funding           $67,485,459         $61,705,789        $5,018,806         $760,864

January I, 2008   CAS Funding Target                 $34,318,422         $28,538,752        $5,018,806         $760,864
                  Percentage Funded                                          100.00%           100.00%          100.00%
                                                                                                                          t
                  Funded Pension Cost                                    $28,538,752        $5,018,806         $760,864
                  Allowable Interest                                              $0                $0               $0
                  Allocable Pension Cost                                 $28,538,752        $5,018,806         $760,864
                  Medicare LOB" Percentage                                     203%             91.17%            0.00%

                  Allowable Pension Cost                                   $579.337         $4,575,645              $0        $5,154,982
                                                                                                                                                                                30f4




                                                                               Total             "Other"          GBA Medicare           CSA Medicare            Total
             Date                          Description                        Company            Segment            Segment                Segment              Medicare

            2009             Contributions                                            $0                 $0                    $0                     $0
           800%              Discount for Interest                                    $0                 $0                    $0                     $0
       January I, 2009       Present Value Contributions                              $0                 $0                    $0                     $0
                             Prepayment Credit Applied                       $48,077,854        $40,853,858            $6,066,226             $1,157,770
                             Present Value of Funding                        $48,077,854        $40,853,858            $6,066,226             $1,157,770

       January I, 2009        CAS Funding Target                             $48,077,854        $40,853,858            $6,066,226             $1,157,770
                             .Percentage Funded                                                     100.00%               100.00%                100.00%
                              Funded Pension Cost                                               $40,853,858            $6,066,226             $1,157,770
                              Allowable Interest                                                         $0                    $0                     $0
                              Allocable Pension Cost                                            $40,853,858            $6,066,226             $1,157,770
                              Medicare LOB' Percentage                                                1.05%                69.48%                  0.00%

                             Allowable Pension Cost                                                $428,966            $4,214,814                       $0       $4,643,780



       , Line of business.

FOOTNOTES

 li Government Benefit Administrators, LLC

 £J.   Cahaba Safeguard Administrators, LLC

 'J!. We obtained Total Company contribution amounts and dates of deposit from      Internal Revenue Service Form 5500 reports. The contributions included deposits
       made during the plan year and accrued contributions deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the
       contributions allocated to the Medicare segments during the pension segmentation review (A-07 -11-00360). The amounts shown for the "Other" segment represent
       the difference between the Total Company and the GBA and CSA Medicare segments.

 ~     We
        	 subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to their
       beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of contributions (at the valuation
       interest rate) and actual contribution amounts.

 2l. The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the plan year.
                                                                                                                                                  For purposes of this
       Appendix, we deemed deposits made after the end of the plan year to have been made on the final day of the plan year, consistent with the method mandated by the
       Employee Retirement Income Security Act.

 §l A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when contributions, plus
       interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension
       costs.

 1L 	 The present value of funding represents the present value ofcontributions plus prepayment credits. This is the amount of funding that is available to cover the CAS
       funding target measured at the first day of the plan year.

 ~	 The    CAS funding target must be funded by current or prepaid contributions to satisfY the funding requirement of the Federal Acquisition Regulation (FAR) 31.205­
       6(jX2)(i).

 2L 	The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year. Because any funding in excess of the
       CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(I) (as amended), the funded ratio may not exceed 100 percent. We
       computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage offunding has been
       rounded to four decimals.

101 We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

ill We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions bears to the
       present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed
       the interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of
       the quarter.

121 The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                                                                                                                                                                       4of4




\3/ We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB) percentage of each segment. We
    determined the LOB percentages based upon information provided by GBA. Our LOB percentages are determined by segment for costs allocated to the Medicare
    Title 18 contracts. The CSA Medicare segment did not allocate any costs to the Medicare Title 18 contracts; therefore, its applicable LOB percentage is zero
    percent.

l1l GBA did not convert its plan year (January I - December 31, i.e, calendar year (CY» pension costs to a fiscal year (FY) basis. Instead, it used the plan year/CY
    allocable pension cost as the FY allocable pension cost. We accepted this methodology and computed the FY allowable Medicare pension costs as the CY allocable
    pension cost multiplied by the FY Medicare LOB percentage. Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare
    contract consisted of the Medicare segment's direct pension costs plus "Other" segment pension costs attributable to indirect Medicare operations.
               APPENDIX B: AUDITEE COMMENTS 



                                                                                                                      "jwl'ri"IL 1,'-\)"'1
                                                                                            pl'(·~ldl·,,1,lilt! Chi,·! 0p'· .. .lUnl! (lllk,']'
                                                                       (:idlilbil   CO\t'f'tlll1f'J11   B.-ildll \dlllfIH:,t,'alnr-i; Ii ! l.c




March 30, 2011


Department of Health and Human Services
Office ofInspector General
Office of Audit Services
Attention: Jenenne Tambke, Audit Manager
Region VII
60 I East 12th Street, Room 0429
Kansas City, Missouri 64106

RE: Report Number: A-07-11-0036l Review of Pension Costs Claimed for Medicare
Reimbursement by Cahaba Government Benefit Administrators, LLC, for Fiscal Years
2003 Through 2009.

Dear Ms. Tambke,

This report is in response to the draft report issued to Cahaba Government Benefit
Administrations ~, LLC's (Cahaba GBA) for the above inentioned audit. We agree with
the recommendation to revise Cahaba's FACP for the fiscal years 2003 through 2009 to
claim additional allowable pension cost of$373,992. We will also revise Cahaba's
f ACPs to claim these additional costs to the allowable CAS pension amount. In addition,
Cahaba will ensure that future pension costs are claimed in accordance with the Medicare
contracts.

If you should have any questions regarding this report, please contact Molly Echols,
Manager Risk and Compliance at (205) 220-1587 or via email at
Mechols@cahabagba.com.

Sincerely..

        C,' c' (/
Sherrie LeMier
President
Cahaba Government Benefit Administrators ®, LLC

CC: 	   Brandon Ward, Vice President, Cahaba GBA Operations
        David Brown, Chief Strategy Officer, Cahaba GBA Administration
        Lane Bell, Divisional Manager, Cahaba GBA


                   '\!lot:OI'PP,.II. Parh",•.\" • Hh'olili!::hlHlI. \l;tb<lmd y •.:t.? -j.·Ll'",
                               \ (, \IS \h--dk:ln-' ·,.hl1\lIL·,tralh \' t 'Hj1t.,.;'fol
